                                         NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS


                             CLOSEOUT MEMORANDUM

Case Number: A01060018
                                                                  11        Page 1of 1



    We received notification in June 2001 from a University1 that one of its graduate
    students (the subject)2 had allegedly falsified data. The University had conducted
    a n Inquiry, concluded a n Investigation was warranted, and notified us because NSF
    had supported the student.3 The allegation to be investigated was that the subject
    falsified a figure representing experimental data. The subject gave the figure to her
    advisor4 who incorporated it into a manuscript submitted for publication and talks
    she presented on the topic. The subject also presented the figure a t a professional
    society meeting.
    We deferred our investigation until the University completed its own. The
    University's Investigation showed the subject's figure contained 25 out of 46 data
    points that did not agree with the subject's raw, experimental data. Although the
    subject claimed all of those discrepancies were mistakes, the University's
    investigation panel concluded the subject intentionally falsified the data so that it
    would show agreement with theoretical predications. The Chancellor concluded the
    subject falsified data and publicly presented it, and decided the misconduct
    warranted dismissal. A student discipline committee agreed with the recommended
    finding, and the student was dismissed from the University. We concluded the
    University's investigation was accurate and complete regarding the subject's
    actions, and we could accept it in lieu of conducting our own investigation.
    We likewise concluded the subject falsified data, and we forwarded our Report of
    Investigation to the subject for her response. In addition to her response on the
    substance of the allegation, the subject asked about the basis for our jurisdiction.
    In reviewing our jurisdiction, we learned that although NSF supported the subject
    during 2 years of her early graduate career, another federal agency5 supported the
    subject during the time in which the falsification took place. We subsequently
    referred the matter to that agency. Accordingly, this case is closed


       l (footnote redacted).
         (footnote redacted).
       3 (footnote redacted).
         (footnote redacted).
       5 The Office of Nava1,Research.
